Chris Jaye
PO Box 5015
Clinton, NJ 08809
caj @okvnews. com
Date: January 21, 2021
Chris Ann Jaye
Petitioner

The Supreme Court of the United States
Docket

v.
US AG Barr, et. al.
Respondents

Word Count Certification
(For Petition 20-3597)

I, Chris Ann Jaye, certify that the word count for my petition is 1500. This includes all words from
Brief Factual Background through my signature.
1 declare (or certify, verify, or state) under penalty of perjury that the foregoing is true and correct.
Executed on January 21, 2021.

s/ Chris Ann Jaye
Chris Ann Jaye
Petitioner (Plaintiff)
Pro se
cc: Sent with 40 Booklets, PDF version and $300 filing fee by tracked mail
cc: Filed with Northern District of Iowa

1

